No. 20-255
In The Supreme Court of the United States

 

 

MAHANOY AREA SCHOOL DISTRICT,
Petitioner,

Vv.
B.L., A MINOR, BY AND THROUGH HER FATHER LAWRENCE LEVY AND

HER MOTHER BETTY LOU LEvy,
Respondents.

 

On Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

AMICUS BRIEF OF THE AMERICAN CENTER
FOR LAW AND JUSTICE
IN SUPPORT OF NEITHER PARTY

 

 

CERTIFICATE OF COMPLIANCE WITH WORD LIMITATIONS

Walter M. Weber, a member of the Bar of this Court and an attorney for amicus, pursuant to
Rule 33.1(h), hereby certifies that the Amicus Brief of The American Center for Law and Justice
in Support of Neither Party complies with the pertinent word limitations. The body of the
document, including footnotes (but exclusive of all material preceding the Interest of Amicus and
all material following the last word of the text of the conclusion), contains 5,194 words.

    

Walter M.

March 1, 2021
